Case: 18-31069

Document: 00515483413

Page: 1

Date Filed: 07/09/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
_
No. 18-31069
_
UNITED STATES OF AMERICA,
Plaintiff - Appellee
v.
KEITH A. JAMES,
Defendant - Appellant

Appeal from the United States District Court
for the Eastern District of Louisiana
ON PETITION FOR REHEARING EN BANC
(Opinion February 18, 2020, 5 Cir.,

_

,

_ F.3d

)

Before HAYNES, OLDHAM, Circuit Judges, and HANEN, *District Judge.
PER CURIAM:
(x ) Treating the Petition for Rehearing En Banc as a Petition for Panel
Rehearing, the Petition for Panel Rehearing is DENIED. No member of
the panel nor judge in regular active service of the court having
requested that the court be polled on Rehearing En Banc (FED. R. APP.
P. and 5TH CIR. R. 35), the Petition for Rehearing En Banc is DENIED.
( ) Treating the Petition for Rehearing En Banc as a Petition for Panel
Rehearing, the Petition for Panel Rehearing is DENIED. The court

Case: 18-31069

Document: 00515483413

Page: 2

Date Filed: 07/09/2020

having been polled at the request of one of the members of the court and
a majority of the judges who are in regular active service and not
disqualified not having voted in favor (FED. R. APP. P. and 5TH CIR. R. 35),
the Petition for Rehearing En Banc is DENIED.
ENTERED FOR THE COURT:
/s/ Catharina Haynes
UNITED STATES CIRCUIT JUDGE

*District Judge of the Southern District of Texas, sitting by designation.

